No. 21IN THE
SUPREME COURT OF THE UNITED STATES

JERMAINE LATWONE HAYNES - PETITIONER
VS.
GEORGE STEPHENSON, Warden - RESPONDENT
PROOF OF SERVICE
I, JERMAINE LATWONE HAYNES, do swear or declare that on this 23rd day of June,
2021, as required by Supreme Court Rule 29, I have served the enclosed, Petition for a Writ
of Certiorari and Motion for Leave to Proceed in Forma Pauperis onClerk of the US Supreme Court
Supreme Court of the United States
Washington, DC 20543

Michigan Attorney General
Attorney for Respondent
P.O. Box 30212
Lansing, MI 48909

by depositing an envelope containing the above documents in the United States mail
properly addressed and with first-class postage prepaid.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on- June 23, 2021
^ERMAINEf LATWONE HAYNES,
STATE OF MICHIGAN )
COUNTY OF MACOMB )
Subscribed and sworn to before me,
this <33 day of June, 2021

Notary Public

N0RBERT J. FR0NCZAK
NOTARY PUBLIC, STATE OF Ml
COUNTY OF MACOMB
MY COMMISSION EXPIRES Sep 9,2021
ACTING IN COUNTY OF ^>U^Jr

No. 21IN THE
SUPREME COURT OF THE UNITED STATES
IN RE:

JERMAINE LATWONE HAYNES,
Petitioner,
V
GEORGE STEPHENSON, Warden
Respondent.
NOTARIZED STATEMENT OF DEPOSITING

Jermaine Latwone Haynes, first duly sworn, states he is an inmate confined at
the Macomb Correctional Facility, at 34625 26 Mile Road, Lenox Township
Michigan 48048, and on this 23rd day of June 2021, he turned over to the Michigan
Department of Corrections Officials to deposit an Original; MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS w/AFFIDAVIT IN SUPPORT; PETITION
FOR WRIT OF CERTIORARI w/APPENDIX; PROOF OF SERVICE, to file with the
Clerk of Court, United States Supreme Court, Notarized Statement Of Depositing;
in the Macomb Correctional Facility Internal Mail System with first class postage
fully prepaid.
Executed on: June 23, 2021
Subscribed and sworn to before me

This<5 2) da.

\

June 2021

ykr>
Notary Public

7

Af *

ermaine Latwone Haynes, #342370
Petitioner, in pro per
N0RBERT J. FR0NCZAK
NOTARY PUBLIC, STATE OF Ml
COUNTY OF MACOMB
MY COMMISSION EXPIRES Sep 9,2021
ACTING IN COUNTY OF

V

